Washington, D.C. 20530

November 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Wali Ross. v. United States of America,
S.Ct. No. 20-5589

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 28, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on November 2, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 2, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5589
ROSS, WALI
USA

RICHARD MICHAEL SUMMA
FEDERAL PUBLIC DEFENDER, NORTHERN
DISTRICT OF FLOR
227 N. BRONOUGH STREET
STE. 4200
TALLAHASSEE, FL 32301-1300
850-942-8818
RICHARD_SUMMA@FD.ORG

